                                                                Issue Date
                                                                         July 6, 2007
                                                                Audit Report Number
                                                                         2007-FW-1012




TO:        Raynold Richardson
           Director, Multifamily Housing Program Center, 6EHM

           Dane M. Narode,
           Acting Associate General Counsel for Enforcement, Office of General Counsel, CEP

           Henry S. Czauski
           Acting Director, Departmental Enforcement Center, CV


FROM:      Theresa A. Carroll
           Acting Regional Inspector General for Audit, Fort Worth Region, 6AGA
SUBJECT: Fallbrook Apartments’, Houston, Texas, Owner and/or Management Agent Made
            Unauthorized Distributions of the Project’s Funds


                                  HIGHLIGHTS

 What We Audited and Why

            We audited Fallbrook Apartments’ owner and previous management agent to
            determine whether they complied with the project’s regulatory agreement and
            U.S. Department of Housing and Urban Development (HUD) regulations.
            Specifically, we wanted to determine whether the owner and/or previous
            management agent (1) improperly advanced and distributed the project’s
            funds when the project was in a non-surplus-cash position, (2) supported
            disbursements with invoices or other supporting documentation, (3) submitted
            the 2005 and 2006 annual audited financial statements as required, and (4)
            fully funded tenant security deposits.

            We selected Fallbrook Apartments for review in accordance with our strategic
            plan and regional goals. In addition, the 2004 audited financial statements of
            the project indicated potential unauthorized distributions.
What We Found


           The owner and/or previous management agent made unauthorized
           distributions of the project’s funds, totaling $367,205, when the project was in
           a non-surplus-cash position and could not adequately support six
           disbursements totaling $31,625. However, the previous management agent
           did not fully pay itself $67,943 in management fees, and the owner repaid a
           total of $150,000 to the project’s operating bank account while we were
           conducting the audit, which reduced the amount of funds owed to the project.
           Also, the owner did not submit the 2005 and 2006 annual audited financial
           statements as required. The owner fully funded the tenant security deposit
           account in March 2006 when the current management agent took over.

What We Recommend


           We recommend the director of HUD’s Multifamily Housing Program Center
           require the owner to (1) repay the project $149,262 for unauthorized
           distributions and put the $149,262 and the $150,000 in repaid funds in a
           restricted escrow account to ensure the owner uses these funds only for
           eligible project expenses, (2) provide support for $31,625 in unsupported costs
           or repay the project, and (3) submit the 2005 and 2006 annual audited
           financial statements. The acting associate general counsel for enforcement of
           HUD’s Office of Counsel should pursue double damages remedies against the
           responsible parties. Further, the acting director of HUD’s Departmental
           Enforcement Center should take administrative sanctions and pursue civil
           money penalties against the owner for repeatedly violating the project’s
           regulatory agreement.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of
           the audit.

Auditee’s Response


           We provided our discussion draft report to the owner on June 13, 2007, and
           held an exit conference on June 26, 2007. The owner provided written
           comments on June 29, 2007, and generally disagreed. We stand by our
           finding. Further, HUD's Office of Multifamily Housing agreed with our
           position and indicated they will seek recovery of the funds after final report
           issuance. We made a minor clarification in the background section of the
           report. The complete text of the auditee’s response, along with our evaluation
           of that response, can be found in appendix B of this report.



                                            2
                          TABLE OF CONTENTS

Background and Objectives                                            4

Results of Audit
      Finding: The Owner and/or Management Agent Made Unauthorized   5
      Distributions of the Project’s Funds

Scope and Methodology                                                9

Internal Controls                                                    11

Appendixes
   A. Schedule of Questioned Costs                                   12
   B. Auditee Comments and OIG’s Evaluation                          13
   C. Federal Requirements                                           30




                                         3
                     BACKGROUND AND OBJECTIVES

Fallbrook Apartments is a 280-unit project located at 201 Plaza Verde Drive in Houston,
Texas. Houston Fallbrook Associates, Ltd. (owner), owns the project. The partnership
consists of a general partner, Millennium Development Corporation (1 percent); limited
partner, Raymond G. Tiedje (73.95 percent); and eight other limited partners (25.05 percent).
Raymond G. Tiedje is the president of the general partner and the president of the previous
management agent, Americas Management.

In September 1999, the owner refinanced the apartment project with more than $4.2 million
in financing provided by Davis-Penn Mortgage Company and insured by the U.S.
Department of Housing and Urban Development’s (HUD) Federal Housing Administration
under Section 223(f) of the National Housing Act. The project has not been in a surplus-cash
position since HUD insured the mortgage. Currently, the project is delinquent on its
mortgage.

Originally, in August 1999, HUD approved Americas Management, LLC, an identity-of-
interest company, as the management agent for the project. Americas Management
maintains its office and records at 1700 Good Day Drive in Missouri City, Texas. Americas
Management served as management agent until March 2006, when the owner hired Creative
Property Management as the management agent. Creative Property Management maintains
its office and records at 8323 Southwest Freeway, Suite 330, in Houston, Texas.

In November 2000, HUD sanctioned Mr. Tiedje, the president of the managing general
partner for Streamside Place Apartments, another HUD-insured project, by flagging him in
the previous participation system. HUD sanctioned Mr. Tiedje because the general partner
failed to submit the project’s annual audited financial statements in a timely manner,
encumbered the project without HUD approval, took funds out of the project’s account when
the project was in a non-surplus-cash position, and defaulted on the mortgage note.

Our objective was to determine whether the Fallbrook Apartments’ owner and previous
management agent complied with the regulatory agreement and HUD regulations.
Specifically, we wanted to determine whether the owner and/or previous management agent
(1) improperly advanced and distributed the project’s funds when the project was in a non-
surplus-cash position, (2) supported disbursements with invoices or other supporting
documentation, (3) submitted the 2005 and 2006 annual audited financial statements as
required, and (4) fully funded tenant security deposits.




                                                4
                                RESULTS OF AUDIT

Finding: The Owner and/or Management Agent Made Unauthorized
Distributions of the Project’s Funds

The owner and/or previous management agent made $367,205 in unauthorized distributions of
the project’s funds and could not adequately support six disbursements totaling $31,625.
However, the previous management agent did not fully pay itself $67,943 in management fees,
and the owner repaid a total of $150,000 to the project’s operating bank account during the audit,
which reduced the amount of funds owed to the project. In addition, the owner did not submit
the annual audited financial statements as required. The owner made unauthorized distributions
and failed to submit financial statements because he disregarded the project’s regulatory
agreement. The previous management agent also lacked effective procedures and controls over
the supporting disbursement records. As a result, fewer project funds were available for
mortgage payments, causing the project to be delinquent on the mortgage and unnecessarily
increasing the risk to HUD. In addition, HUD did not receive financial statements that would
allow it to adequately monitor the project.



 The Owner Made $367,205 in
 Unauthorized Distributions



               The owner and/or previous management agent made unauthorized distributions
               of the project’s funds totaling $367,205 from January 1, 2002, to March 31,
               2006, when the project was in a non-surplus-cash position. The unauthorized
               distributions included

                      •           Unpaid negative surplus cash of $87,205 in 2004,
                      •           An unauthorized distribution of $150,000 in 2004, and
                      •           An unauthorized distribution of $130,000 in 2005.

               The owner did not pay the outstanding negative surplus cash balance in 2002 as
               HUD’s Departmental Enforcement Center required. HUD’s Departmental
               Enforcement Center stated that the owner needed to pay off the negative surplus
               cash and fund the tenant security deposit account to clear HUD’s 2001 report
               findings. Therefore, the owner should pay the negative surplus cash of $87,205
               as of December 31, 2004, the most current audited financial statement.

               The owner transferred $150,000 to the project’s operating account to repay the
               remaining balance of $123,595 in unauthorized advances to the general partner
               and underfunded tenant security deposit in December 2004, after HUD’s


                                                5
           Departmental Enforcement Center advised the owner that it intended to pursue
           double damages remedies under the equity skimming statutes for the misuse of
           project funds. HUD’s Departmental Enforcement Center closed the findings
           covering the 2002 and 2003 audited financial statements after the owner wire
           transferred $150,000 into the project’s operating bank account. However, the
           owner withdrew the same amount by wire transfer on the same date that he
           notified HUD of the transfer of funds into the account to clear the findings.

           The owner made an additional unauthorized distribution of $130,000 from the
           project’s reserve for replacement funds. HUD released the funds from the
           reserve for replacement account based on the owner’s statement that he had
           cleared HUD’s findings.

           The amounts owed to the project need to be reduced by unpaid management
           agent fees and amounts repaid by the owner during the audit. The previous
           management agent did not receive its management fee for the period
           September 2005 to February 2006. In addition, the previous management
           agent only charged the project $5,000 per month in management fees.
           Management fees should be based on the project’s income. According to the
           management certification, the previous management agent was allowed to
           receive 6 percent of the project’s rental income. Therefore, the previous
           management agent is entitled to receive an additional amount of $67,943, as it
           did not collect the full amount due to it, and the ineligible amount owed to the
           project is reduced to $299,262 ($367,205 less $67,943).

           In addition, during the audit, the owner repaid the project $150,000, including
           $100,000 on October 11, 2006, and $50,000 on February 20, 2007. However,
           to ensure the owner uses the $150,000 and the other ineligible amounts we are
           questioning only for eligible purposes, we recommend that these amounts be
           placed in a restricted escrow account.


The Owner Could Not
Adequately Support Six
Payments


           The owner and/or previous management agent could not adequately support
           six disbursements totaling $31,625. The disbursements were for
           reimbursements to the management agent for health, life insurance, workers
           compensation, and a payment to one contractor. The payments lacked
           supporting information, such as policies, invoices, or other documentation, to
           support that the costs were allocated equitably among various projects. The
           owner was able to override any controls or procedures used to ensure that
           disbursements complied with the regulatory agreement and HUD regulations.




                                            6
             However, the owner corrected the above internal control weakness by hiring a
             new management agent in March 2006.


The Owner Did Not Submit
Annual Audited Financial
Statements as Required


             The owner did not submit the annual audited financial statements as required.
             The owner did not submit the 2005 and 2006 audited financial statements for
             fiscal years ending December 31, 2005, and December 21, 2006, that were
             due March 31, 2006, and March 31, 2007, respectively. As a result, HUD
             lacks financial information necessary to monitor the project.

Conclusion


             The owner’s and previous management agent’s unauthorized distributions and
             unsupported disbursements reduced the amount of the project’s operating
             funds available for mortgage payments and unnecessarily increased the risk of
             mortgage default. The project was delinquent on its mortgage payments,
             although HUD approved two withdrawals from reserves totaling $103,964
             during December 2006 and February 2007 for mortgage payments to avoid
             assignment by the lender. The owner and previous management agent were
             aware that the distributions violated the regulatory agreement because HUD
             had required repayment of past unauthorized distributions and threatened to
             pursue double damages remedies under the equity skimming statutes for the
             misuse of project funds. The deposits into and wire transfers out of the
             project’s account clearly show the owner’s and/or previous management
             agent’s understanding and disregard of the regulatory agreement.




                                             7
Recommendations



          We recommend the director of HUD’s Multifamily Program Center

          1A. Recover the $149,262 in unauthorized distributions and deposit this
          amount, as well as the $150,000 the owner repaid during the audit for
          unauthorized distributions, into the project’s reserve for replacement or a
          restricted capital account, which requires HUD approval for release of the
          funds.

          1B. Require the owner to either furnish supporting documentation or repay
          the project $31,625 for unsupported expenses from nonproject funds.

          1C. Require the owner to submit the 2005 and 2006 annual audited financial
          statements.

          We recommend that the acting associate general counsel for enforcement of
          HUD’s Office of Counsel in coordination with HUD’s director of the Fort
          Worth Multifamily Housing Hub and the HUD’s Office of Inspector General

          1D. Pursue double damages remedies against the responsible parties for the
          ineligible and the applicable portion of the unsupported disbursements that
          were used in violation of the project’s regulatory agreement.

          We also recommend the acting director of HUD’s Departmental Enforcement
          Center

          1E. Pursue civil money penalties and administrative sanctions, as
          appropriate, against the owner, previous management agent, and/or their
          principals for their part in the regulatory violations cited in this report.




                                            8
                        SCOPE AND METHODOLOGY

We conducted the audit at the offices of the previous management agent and the local HUD
office in Houston, Texas. Our review period was from January 1, 2002, to March 31, 2006.
We expanded the scope of the audit as necessary. During the audit, we performed the
following steps:

   • Reviewed background information, the regulatory agreement, and criteria that control
     the insured multifamily housing project.

   • Reviewed various reports, databases, and documents to determine existing conditions
     at Fallbrook Apartments. The data included available independent public accountant
     reports for fiscal years 2002, 2003, and 2004; information contained in HUD’s Real
     Estate Management System; and documents maintained by the multifamily project
     manager assigned to monitor the project.

   • Verified the integrity of the conversion by performing various tests on the project data
     that we converted into an electronic format.

   • Physically inspected the common areas in the apartment complex to determine the
     project’s overall physical condition.

   • Reviewed disbursements and deposits in the accounting records and their supporting
     documentation to determine whether they appeared appropriate. We reviewed 100
     percent of all 37 payments to and from the owner or related parties and management
     fees. We also reviewed a sample of other disbursements and their supporting
     documentation. Using nonstatistical methods, we selected 25 disbursements from our
     review of bank statements, canceled checks, general ledgers, and check registers based
     on the results of the survey review of 32 disbursements. These 25 payments were
     reimbursements to the management agent for health, life insurance, and workers
     compensation, and disbursements to construction contractors that equaled $500 or
     greater. The conclusions reached relate only to the sample items tested and cannot be
     projected to the universe or population of 3,821 disbursements.

   • Conducted interviews with staff of the previous management agent, the current
     management agent, the owner, and HUD Multifamily and Departmental Enforcement
     Center personnel.

   • Reviewed Fallbrook Apartments’ audited financial statements for the years ending
     1999 through 2001, HUD’s closing files, and HUD’s Departmental Enforcement
     Center’s archived files for information relating to the loans from the owner’s affiliate.

   • Obtained and reviewed Streamside Place’s project files from HUD’s archives to review
     documentation relating to the 2530 flag of Mr. Tiedje.




                                                9
   • Reviewed the project’s tenant security deposit bank account, general ledgers, and/or
     detailed tenant security deposit liability to determine whether the tenant security
     deposit was fully funded.

We performed the audit during October and November 2006 and February and March 2007. We
performed our audit in accordance with generally accepted government auditing standards.




                                              10
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit
              objectives:

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Validity and reliability of data – Policies and procedures that
                      management has implemented to reasonably ensure that valid and
                      reliable data are obtained, maintained, and fairly disclosed in reports.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide
              reasonable assurance that the process for planning, organizing, directing, and
              controlling program operations will meet the organization’s objectives.

              Based on our review, we did not find any items that we believe are current
              significant weaknesses as the new management agent has resolved the control
              weaknesses identified.




                                                11
Appendix A


                SCHEDULE OF QUESTIONED COSTS

              Recommendation          Ineligible 1/     Unsupported
                  number                                    2/
                             1A              299,262
                             1B                                31,625


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.




                                             12
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         13
Comment 3




Comment 4




            14
Comment 4



Comment 5




Comment 6




Comment 7




            15
16
17
18
19
20
21
22
23
24
25
26
27
                         OIG Evaluation of Auditee Comments

Comment 1   We changed the background section of the report from the “owner acquired” to
            the “owner refinanced”.

Comment 2   The owner disagreed with the unauthorized distribution amount and stated the
            amount is less. In addition, he stated OIG did not consider expenses such as real
            estate tax protests, overhead compensation, and travel costs that have not been
            reimbursed. We disagree. The schedule provided by his accountant is incorrect
            as it does not include the unauthorized distributions discussed in this report.
            Further, the owner’s personal expenses and advances can be repaid, but only
            when the project has surplus cash, which it does not.

Comment 3   The owner indicates that the problems have arisen because of an affiliate loan of
            $329,000 to the project, not including the accrued interest of about $100,000 by
            December 31, 2001 or over $150,000 by June 29, 2007. We agree that a loan of
            $329,000 was recorded in the project’s books; however, the loan was not
            approved by HUD and, according to the project’s 1999 audited financial
            statements, it was a non-interest bearing loan. In addition, even though the loan
            and interest should have been paid from surplus cash, in 2002, the owner paid off
            the loan and accrued interest, totaling $363,048, by offsetting it against the
            improper advances the owner had made to the general partner when the project
            was in a non-surplus cash position. HUD’s Departmental Enforcement Center did
            not question the offset, but did state that the owner needed to pay off the negative
            surplus cash. As detailed in the finding, the owner’s repayment of $150,000 to
            settle the issue was almost immediately followed by an unauthorized distribution.

Comment 4   The owner indicates that HUD refused to release reserve for replacement funds
            which prohibited the property from having cash reserves available to make a
            distribution. We disagree with the owner’s reasoning, which is contrary to HUD
            requirements. Reserve for replacement funds are generally used to help defray
            the costs of replacing a project’s capital items. Operating and make ready costs
            identified by the owner are generally ineligible for draws from this fund. Further,
            HUD was refusing to release funds from this account because the owner had
            unresolved findings. Additionally, in August 2006, the balance in the reserves for
            replacement account, approximately $260,000, was not sufficient for exterior and
            interior repairs identified by the new management agent and HUD.

Comment 5   The owner indicates that the deposit and distribution of $150,000 was suggested
            by HUD personnel. However, he has been unable to provide any proof that HUD
            approved such a transaction, which would have been in violation of the regulatory
            agreement. Instead, written correspondence from HUD in 2002 and 2003
            indicates that HUD informed the owner that HUD’s approval was not obtained for
            the unauthorized distributions and the funds needed to be repaid to the project.




                                             28
Comment 6   The owner stated that disbursements were for the reimbursements for employee
            costs, and were not paid out to any partner or principal in the Fallbrook
            Partnership. However, HUD requires that all disbursements from the project's
            operating account must be supported, and the owner did not provide support.

Comment 7   The owner did not dispute the finding, but explained he did not submit the 2005
            and 2006 audited financial statements as required due to the lack of funds and the
            change of the management agent and accounting. However, the project might
            have had sufficient funds if the owner had not made unauthorized distributions.




                                            29
Appendix C

                           FEDERAL REQUIREMENTS

Regulatory Agreement

The following pertinent paragraphs are from the executed regulatory agreement.

Paragraph 6(e):

The owner shall not without the prior written approval of the Secretary [of HUD] make, or
receive and retain, any distribution of assets or any income of any kind of the project except
surplus cash and except on the following conditions: 1) all distributions shall be made only
as of and after the end of a semiannual or annual fiscal period, and only as permitted by law
of the applicable jurisdiction; 2) no distribution shall be made from borrowed funds, prior to
the completion of the project or when there is any default under this Agreement or under the
note or mortgage; 3) any distribution of any funds of the project, which the party receiving
such funds is not entitled to retain hereunder, shall be held in trust separate and apart from
any other funds; and 4) there shall have been compliance with all outstanding notices of
requirements for proper maintenance of the project.

Paragraph 9(c):

The mortgaged property, equipment, buildings, plans, offices, apparatus, devices, books,
contracts, records, documents, and other papers relating thereto shall at all times be
maintained in reasonable condition for proper audit and subject to examination and
inspection at any reasonable time by the Secretary or his duly authorized agents. Owners
shall keep copies of all written contracts or other instruments which affect the mortgaged
property, all or any of which may be subject to inspection and examination by the Secretary
or his duly authorized agents.

Paragraph 9(e):

Within sixty (60) days following the end of each fiscal year the Secretary shall be furnished
with a complete annual financial report based on an examination of the books and records of
mortgagor prepared in accordance with the requirements of the Secretary, prepared and
certified to by an officer or responsible Owner and, when required by the Secretary, prepared
and certified to by a Certified Public Accountant, or other person acceptable to the Secretary.

Paragraph 13(g):

“Distribution” means any withdrawal or taking of cash or any assets of the project, including
the segregation of cash or assets for subsequent withdrawal with the limitation of Paragraph



                                                30
6(e) hereof, and excluding payment for reasonable expenses incident to the operation and
maintenance of the project.


HUD Handbook 4370.2, REV-1, CHG-1

Paragraph 2-6, Section E:

All disbursements from the Regular Operating Account (including checks, wire transfers and
computer generated disbursements) must be supported by approved invoices/bills or other
supporting documentation. The request for project funds should only be used to make
mortgage payments, make required deposits to the Reserve for Replacements, pay reasonable
expenses necessary for the operation and maintenance of the project, pay distributions of
surplus cash permitted and repay owner advances authorized by HUD.

Paragraph 2-10, Section A:

Surplus cash distributions may not be paid from borrowed funds, prior to the completion of
the project or when a project is in default or under a forbearance agreement. If the owner
takes distributions when the project is in default or when the project is in a non-surplus-cash
position, the owner is subject to criminal and/or civil penalties.




                                                31
